TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Collection Alternatives Were Available to
                  Economically Distressed Taxpayers, but
                  Some New Processes Need Improvement



                                       March 15, 2010

                           Reference Number: 2010-30-032




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                      HIGHLIGHTS


COLLECTION ALTERNATIVES WERE                             provisions were widely communicated to the
AVAILABLE TO ECONOMICALLY                                public and tax preparers through various public
DISTRESSED TAXPAYERS, BUT SOME                           media outlets and presentations. In addition, the
NEW PROCESSES NEED                                       provisions and procedures were communicated
                                                         to IRS employees through various channels and
IMPROVEMENT
                                                         in updates to the Internal Revenue Manual.
                                                         However, when implementing a new process to
Highlights                                               allow individual taxpayers an additional payment
                                                         skip on installment agreements, more payment
Final Report issued on March 15, 2010                    skips were allowed than initially planned.
                                                         In addition, the new payment skip was occurring
Highlights of Report Number: 2010-30-032 to
                                                         for taxpayers who were not initially intended to
the Internal Revenue Service Chief,
                                                         receive the additional flexibility.
Communications and Liaison; Commissioner,
Small Business/Self-Employed Division; and,              Additionally, the IRS added a webpage
Commissioner, Wage and Investment Division.              containing various scenarios to its web site. The
                                                         scenarios contain options that might be available
IMPACT ON TAXPAYERS                                      to help financially distressed taxpayers meet
Collection provisions offer many viable                  their tax obligations. However, the direct link
alternatives to help resolve taxpayers’ balance          has not always been present. For example, it
due accounts. When the economy weakened,                 was not displayed from the last week of
the Internal Revenue Service (IRS) proactively           September to the first week of December 2009.
implemented or re-emphasized provisions that
                                                         WHAT TIGTA RECOMMENDED
will help economically distressed taxpayers.
However, some of the actions could jeopardize            TIGTA recommended that the IRS
collections and, at times, some taxpayers may            1) revise computer programming to remove the
have had difficulty identifying the alternatives if      unintended consequences from the processing
they were unfamiliar with IRS resources.                 routine and 2) ensure that the link to the various
                                                         scenarios remains on the IRS home page and/or
WHY TIGTA DID THE AUDIT                                  the Tax Information for Individuals page until the
The record numbers of homeowners falling                 economy recovers.
behind on mortgage payments and the economy              In their response to the report, IRS officials
losing jobs at an alarming rate resulted in              agreed with our findings and recommendations.
taxpayers facing financial difficulties which            They plan to modify the systemic installment
impacted their ability to meet tax obligations. In       agreement payment skips to allow only 2 in a
a January 2009 news release, the IRS                     rolling 12-month period. They have also added
highlighted some existing and new alternatives           a link to the scenarios on the Tax Information for
available to taxpayers facing financial                  Individuals page and plan to leave it there
challenges due to the declining economy. The             indefinitely. In addition, they plan to place the
objective of this review was to determine                link on the IRS home page as often as possible.
whether the IRS effectively implemented
provisions identified to assist economically
distressed taxpayers having difficulties paying
their balance due accounts.
WHAT TIGTA FOUND
New provisions, along with modifications to and
re-emphasis of existing procedures, provide
many viable alternatives to help resolve
taxpayers’ balance due accounts. The
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 15, 2010


 MEMORANDUM FOR CHIEF, COMMUNICATIONS AND LIAISON
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Collection Alternatives Were Available to
                             Economically Distressed Taxpayers, but Some New Processes Need
                             Improvement (Audit # 200930037)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively implementing provisions identified to assist economically distressed
 taxpayers having difficulties paying their balance due accounts. This review was initiated when
 the Commissioner announced that IRS employees have flexibility to work with taxpayers
 impacted by the weak economy. The review addresses the major management challenges of Tax
 Compliance Initiatives, Providing Quality Taxpayer Service Operations, and Taxpayer
 Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                             Collection Alternatives Were Available to Economically
                             Distressed Taxpayers, but Some New Processes Need
                                                  Improvement




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Collection Procedures Are Available to Assist Taxpayers
          Facing Financial Difficulties.........................................................................Page 2
          More Installment Agreement Payment Skips Are Allowed
          Than Initially Planned...................................................................................Page 5
                    Recommendation 1:..........................................................Page 7

          A Webpage Explaining Options Available to Financially
          Distressed Taxpayers Lacked Visibility at Times ........................................Page 7
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Glossary of Terms .................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 17
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement




                                      Background

The record numbers of homeowners falling behind on mortgage payments and the economy
losing jobs at an alarming rate resulted in taxpayers facing financial difficulties that impacted
their ability to meet tax obligations. In a news release dated January 6, 2009, the Internal
Revenue Service (IRS) highlighted some options available to taxpayers facing financial
challenges due to the declining economy. The release quoted the Commissioner as saying: “We
want to go the extra mile to help taxpayers, especially those who’ve done the right thing in the
past and are facing unusual hardships.”
However, the Commissioner also pointed out that the IRS needs to “ensure that we balance our
responsibility to enforce the law with the economic realities facing many American citizens
today.” The article went on to point out that:
       On a wide range of situations, IRS employees have the flexibility to work with struggling
       taxpayers to assist them with their situation. Depending on the circumstances, taxpayers
       in hardship situations may be able to adjust payments for back taxes, avoid defaulting on
       payment agreements or possibly defer collection action.
Taxpayers needing assistance were advised that they need to contact the IRS to discuss what
options might be available to help in their specific situation.
This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, and the Wage and Investment Division Headquarters in
Atlanta, Georgia, during the period July through October 2009. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 1
                       Collection Alternatives Were Available to Economically
                       Distressed Taxpayers, but Some New Processes Need
                                            Improvement




                                   Results of Review

Overall, the IRS effectively implemented or re-emphasized options that will help economically
distressed taxpayers who are now having difficulties paying their balance due accounts. These
new provisions, modifications to, and re-emphasis of, existing procedures provide many viable
alternatives to help resolve taxpayers’ balance due accounts. The provisions were widely
communicated to the public through various public media outlets and presentations at the
National Tax Forums that provide education to tax preparers. In addition, the provisions and
procedures were communicated to IRS employees through various channels and in updates to the
Internal Revenue Manual.
However, when the IRS implemented an additional payment skip 1 on installment agreements, the
revised programming provided more skips than initially planned. In addition, the IRS posted a
link on its home page that directed taxpayers to information scenarios designed to answer
questions about how to meet their tax obligations when they are financially distressed. However,
the link has not always been present. For example, the link was not present from the last week of
September to the first week of December 2009, making the scenarios more difficult to locate
during those 2 months.

Collection Procedures Are Available to Assist Taxpayers Facing
Financial Difficulties
Previously existing alternatives and procedures provided flexibility based on the taxpayer’s
financial condition. For example, other than obtaining an immediate full payment for balance
due accounts, the IRS had the ability to accept installment agreements and Offers in
Compromise, or the IRS could determine that the balance due was currently not collectible.
Late in Calendar Year 2008, the IRS took a proactive approach and established teams 2 to
consider what additional actions could be taken to assist taxpayers. The proposed changes and
actions of the teams were summarized in the Economic Challenges Action Plan. The teams were
assigned responsibility to research proposed actions and implement those actions that were
determined to be feasible. One criterion was that the actions needed to be implemented quickly.
The IRS ensured that taxpayers, tax preparers, and its employees were aware of the new and
existing collection alternatives. The collection alternatives were widely communicated to the
public through various public media outlets, presented to tax preparers at the National Tax

1
 See Appendix V for a glossary of the terms.
2
 These teams were composed of employees primarily from the Small Business/Self-Employed and Wage and
Investment Divisions.
                                                                                                   Page 2
                          Collection Alternatives Were Available to Economically
                          Distressed Taxpayers, but Some New Processes Need
                                               Improvement



Forums, and communicated to IRS employees through various channels and updates to the
Internal Revenue Manual.
One major effort to communicate the efforts was a news release dated January 6, 2009. In it, the
IRS highlighted examples of actions it can take to help taxpayers that might be affected by the
economic downturn. All actions highlighted in the news release were implemented by
February 9, 2009. These actions included:
    •    Added flexibility for missed payments: When a taxpayer misses a scheduled payment
         on an installment agreement, the IRS previously allowed 30 days to pass before
         defaulting (terminating) the installment agreement. This provision delays the default of
         the installment agreement if the taxpayer was a few days late submitting the payment or
         if the payment was delayed in the mail. To provide additional flexibility for individuals,
         the IRS added a 30-day delay before starting the default process. In addition, when the
         additional delay is initiated, a letter is mailed to the taxpayer explaining the options that
         might be available to help him or her through the difficult time and encouraging the
         taxpayer to call the IRS to discuss the situation.
    •    Additional review of home values on Offer in Compromise cases: When reviewing a
         taxpayer’s Offer in Compromise proposal, the IRS considers the taxpayer’s equity in
         assets, including equity in a home, along with other financial conditions. A taxpayer’s
         equity in real property can be a barrier to an Offer in Compromise being accepted. With
         the uncertainty of home values during the economic downturn, the IRS established an
         additional independent review of the home value information that is used during the
         Offer in Compromise process when the home value is the sole issue in the proposed
         rejection of the offer. 3
    •    Postponement of collection actions: When a balance due is below a specified dollar
         amount (tolerance), the IRS has historically had procedures to close cases as currently not
         collectible without conducting a complete financial verification. This practice postpones
         certain collection actions on the case. However, the tolerance amount was different
         depending on which organization within the Collection function was working the case.
         The IRS revised the tolerance amount so that it is now consistent between the various
         organizations.
    •    Prevention of Offer in Compromise defaults: When a taxpayer misses a scheduled
         payment agreed to in his or her Offer in Compromise, the IRS sends a letter reminding
         the taxpayer of the payment and warning that the offer will be defaulted and the original
         tax re-instated if payment is not made. A phone number is provided for the taxpayer to


3
  As of July 2009, only seven taxpayers qualified for this new independent review. We were advised that it appears
that the cases that might meet the additional review criteria are getting closer scrutiny within the group working the
proposed offer and resolved at that level. These cases would not need to be referred for the additional review.
                                                                                                               Page 3
                        Collection Alternatives Were Available to Economically
                        Distressed Taxpayers, but Some New Processes Need
                                             Improvement



        call if he or she has any questions. Additional wording was added to this letter to include
        an explanation of some options that might be available to the taxpayer. These options
        were historically available, but were not previously spelled out in the default notice. The
        options include requesting an extension of time to pay or a change in terms on the
        original offer.
    •   Expedited levy releases: When a levy imposes an economic hardship on a taxpayer, the
        taxpayer has historically been able to request expedited release of the levy. For
        Collection function employees responding to taxpayers via telephone, this is
        accomplished by faxing the release to the applicable party. This procedure was included
        in the news release, along with instructions to taxpayers about how to request the
        expedited release and what information they should have available before calling the IRS.
While not highlighted in the January 6, 2009, news release, the Economic Challenges Action
Plan included additional collection alternatives that can assist taxpayers facing financial
difficulties. These additional actions included:
    •   Reasonable cause penalty abatement: The IRS has had the authority to abate certain
        penalties when there was a reasonable cause. One example includes a lack of funds, but
        only when the taxpayer can demonstrate the lack of funds occurred despite exercising
        ordinary business care and prudence. An internal communication was posted on
        May 4, 2009, reminding employees of these procedures.
    •   Notice of Federal Tax Lien discharge or subordination: The IRS had procedures in
        place to cover these actions, which help taxpayers who are trying to refinance their loans
        or sell property. A news release was issued on the topic on December 16, 2008.
    •   Offer in Compromise low-income determinations: Previously, procedures required
        that any Offer in Compromise received without the Income Certification for Offer in
        Compromise Application Fee and Payment (Form 656-A) or the required payments 4 be
        returned to the taxpayer as not processible. Procedures were changed to allow the review
        of the Collection Information Statement (Form 433-A) to determine if the taxpayer
        qualifies for the low-income waiver. 5 If the waiver applies, the IRS is allowed to
        continue reviewing the offer. An internal guidance memo containing these instructions
        was issued on February 2, 2009.
    •   Partial Payment Installment Agreements in Offer in Compromise cases: When
        agreement on an Offer in Compromise cannot be reached, IRS procedures require that
        other alternative resolutions be discussed with the taxpayer. One of the alternatives is a

4
  Required payments can include the application fee, the down payment required with lump sum cash offers, and/or
the immediate installment payment with periodic payment offers.
5
  Those taxpayers qualifying for the low-income waiver are not required to submit the payments mentioned above
for their offer to be considered.
                                                                                                         Page 4
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement



       Partial Payment Installment Agreement. A training presentation was developed to be
       given to employees making offer determinations that re-emphasized the need to consider
       a Partial Payment Installment Agreement as a collection alternative when an offer
       agreement is not reached.
Additional actions were considered but not immediately implemented for various reasons. These
actions will be worked separately, be put on hold, or not be pursued. Some of these required
changes to computer applications where the reprogramming would require significant time to
implement or legislative change. For example, one item considered was elimination of the
20-percent down payment that is required with lump-sum cash Offers in Compromise. This
would have applied to all taxpayers, not just those meeting the low-income waiver previously
mentioned. However, this requires legislative change which could not be accomplished in the
short term.

More Installment Agreement Payment Skips Are Allowed Than Initially
Planned
Previously existing IRS programming allowed for 1 skipped payment (30-day delay) before an
installment agreement would be defaulted. The Economic Challenges Action Plan provided for
1 additional 30-day skip per calendar year in addition to the previously existing 30-day skip, for
a total of 2 skipped payments, or 60 days. The IRS modified its processing routine to
automatically allow taxpayers the additional payment skip before the installment agreement
defaulted.
The modification also included placing a code on the taxpayer’s account to track those that
received the additional payment skip. Our analysis of this code showed that between
January 31, 2009, and July 18, 2009, a total of 615,197 taxpayers ******2(f)***************
 *****2(f)*******************received the additional payment skip. However, ***2(f)*****
***2(f)**4,800 ***2(f)*** taxpayers and ***2(f)************ received more than 1 additional
payment skip during this 6-month period. If taxpayers remain in installment agreement status,
allowing the additional 30-day skip multiple times could eventually jeopardize collection of the
balance due by the Collection Statute Expiration Date.
After we advised IRS management that the program was allowing multiple additional payment
skips, they reviewed a sample of 31 cases to determine why the taxpayer received multiple
additional skips.
   •   In 11 cases, employees accessing the installment agreement record manually reset the
       skip indicator to the initial setting.
   •   In 13 cases, the skip indicator was reset to the initial setting by the system because the
       installment agreement was revised. A revision could occur when the taxpayer requests to


                                                                                            Page 5
                        Collection Alternatives Were Available to Economically
                        Distressed Taxpayers, but Some New Processes Need
                                             Improvement



          change the monthly payment amount or requests that the payment be due on a different
          day of the month.
      •   In 7 cases, the taxpayer had defaulted on the installment agreement that had the first
          additional skip, and then the taxpayer entered into a new installment agreement. When
          the new installment agreement is entered to the system, the skip indicator can either be
          set to allow skips or not. In these cases, the skip indicator was set to allow skips and the
          additional skip was allowed when the taxpayer missed a scheduled payment on the new
          agreement.
IRS management also determined that 24 (77 percent) of the 31 taxpayers that received the
multiple additional payment skips subsequently defaulted on their installment agreement. In
addition, 17 (85 percent) of the 20 taxpayers who received an additional skip and negotiated a
new or revised installment agreement subsequently defaulted on it.
**************2(f)***********************************************************
****************************************************************************
****************************************************************************
 ****************************************************************************
****************************************************************************
****************************************************************************
*******************************.
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
*****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
****************************************************************************
*****************.




6
    ***2(f)***********************************************************************************.
                                                                                                Page 6
                      Collection Alternatives Were Available to Economically
                      Distressed Taxpayers, but Some New Processes Need
                                           Improvement



Recommendation
Recommendation 1: The Director, Compliance, Wage and Investment Division, should
submit a request to revise the computer programming to allow taxpayers only 1 additional
automatic skip per 12-month period and *******2(f)*********************************
***2(f)******.
       Management’s Response: IRS management agreed with this recommendation. For
       individuals, they will modify the systemic installment agreement payment skips to allow
       only 2 in a rolling 12-month period. They will not allow employees to reset the systemic
       skip counter and will provide additional guidance to employees on when they can allow a
       skipped payment beyond the systemic skips. These programming changes are contingent
       on Modernization and Information Technology Services organization resources and
       funding. ******2(f)******************************************************
       ***2(f)*********.

A Webpage Explaining Options Available to Financially Distressed
Taxpayers Lacked Visibility at Times
The IRS’ web site (IRS.gov) is a major strategic tool that allows the IRS to more efficiently
fulfill its mission to help taxpayers understand and meet their tax responsibilities. As a result of
the declining economy and in support of its mission, the IRS added a direct link to a “‘What Ifs’
of an Economic Downturn” scenarios page on the home page of its web site. However, the link
has not always been present. For example, the link was not present from the last week of
September 2009 to the first week of December 2009. During those 2 months, links regarding
other current topics were present.
The scenarios located by using the link could be extremely valuable to taxpayers during any
economic condition, but especially when unemployment rates are as high as they were
throughout Calendar Year 2009. The scenarios provide taxpayers with information on the
options available to them when facing financial problems. They include topics such as:
   •   What if I can’t pay my taxes?
   •   What if I can’t pay my installment agreement?
   •   What if I lose my job?
   •   What if I lose my house to foreclosure?
While the information scenarios remained available on the web site when the direct link was not
present, taxpayers might have had difficulty locating them. One option to locate them was for
the taxpayer to perform a search by typing in “What If” or a key word for one of the scenarios in


                                                                                              Page 7
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement



the search box. Another option was to go to the newsroom page and scroll down to find the link
to the information.
There has been considerable publicity around the link and scenarios. The scenarios were
referenced in the January 6, 2009, news release, where the IRS announced actions that can assist
financially distressed taxpayers, and in other news releases during the year. In addition, during
their annual Continuing Professional Education training, Collection function field employees
were encouraged to spread the word about the link to the scenarios, such as when assisting
taxpayers that walk into the office with questions. However, the link was removed soon after the
training sessions were completed and was not present for 2 months.

Recommendation
Recommendation 2: The Chief, Communications and Liaison, in coordination with the
Wage and Investment Division, should ensure that the link remains prominently displayed on the
IRS home page and/or the Tax Information for Individuals page at least until the economy
recovers (unemployment rate drops).
       Management’s Response: IRS management agreed with this recommendation.
       They will ensure that the link to the “What Ifs’ of an Economic Downturn” scenarios
       page is readily available to taxpayers. Action has already been taken to link the page on
       the Tax Information for Individuals Page and will remain there indefinitely.
       Additionally, a link to this page will also be posted on the front page of IRS.gov as often
       as possible, given other competing priorities for the limited front page space.




                                                                                            Page 8
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is effectively
implementing provisions identified to assist economically distressed taxpayers having difficulties
paying their balance due accounts. To accomplish our audit objective, we:
I.     Identified what actions were considered to assist economically distressed taxpayers.
       A. Obtained and reviewed a copy of the Economic Challenges Action Plan used to keep
          track of the actions considered. This contained a description of each item considered
          and the status of the item. If the action was implemented, it described what was
          implemented and the effective date. If the action was not implemented, it showed the
          reason for not implementing the action.
       B. Discussed the provisions with responsible analysts, and asked if they were aware of
          additional provisions being considered.
II.    Determined the effectiveness of communicating the provisions to internal and external
       stakeholders.
       A. Reviewed applicable sections of the Internal Revenue Manual that contained the
          provisions. We also reviewed other interim methods of communication on the
          provisions issued within the IRS.
       B. Reviewed copies of reports that contained comments obtained during focus group
          sessions held during operational reviews.
       C. Reviewed IRS plans for focus group sessions conducted during the 2009 Tax Forums
          and attended the sessions at the Tax Forums held in Las Vegas, Nevada;
          San Diego, California; and Atlanta, Georgia, to observe the types of comments
          received from the participants.
       D. Reviewed presentation materials used by presenters for education sessions conducted
          during the 2009 Tax Forums to determine how the provisions were portrayed to the
          participants.
       E. Reviewed information on the provisions as shown in the public media.
III.   Determined how the IRS is monitoring taxpayers assisted through the provisions. We
       discussed tracking of the provisions with analysts responsible for the provisions and
       obtained data from the tracking applications.
IV.    Determined the impact that implementing the provisions will have on the IRS.
                                                                                           Page 9
                           Collection Alternatives Were Available to Economically
                           Distressed Taxpayers, but Some New Processes Need
                                                Improvement



           A. Determined the volume of taxpayers potentially affected by the provisions.
               1. Obtained Master File 1 data from the Treasury Inspector General for Tax
                  Administration’s Data Center Warehouse for the transaction code placed on the
                  taxpayer’s entity when the additional 30-day skip was applied to taxpayers that
                  missed a scheduled installment agreement payment. During the period between
                  January 31, 2009, and July 18, 2009, we identified 615,197 taxpayers
                  ********2(f)**************************************** that received the
                  additional skip. This was the most recent data available at the time of our
                  analysis.
               2. Validated the output results by researching a sample of 40 records ***2(f)*****
                  *****2(f)*************** on the Integrated Data Retrieval System. The data
                  associated with the transaction code matched for all 40 records. In addition, the
                  data were sorted by transaction code date. There were no transaction code dates
                  that preceded the implementation date of the transaction code. We determined
                  that the data were sufficiently reliable to meet our objective.
               3. Analyzed the data to determine the number of taxpayers with more than one
                  additional 30-day skip.
           B. Discussed future workload impact with analysts responsible for implementing the
              provisions.
           C. Reviewed the provisions to determine if there are inconsistencies between similar
              programs.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.
We determined the following internal controls were relevant to our audit objective: the
Small Business/Self-Employed Division’s policies, procedures, and practices for the various
alternative collection actions (e.g., installment agreements and Offers in Compromise).
We evaluated these controls by:
      •    Reviewing the Economic Challenges Action Plan used to document and control the
           various flexibility provisions that were considered.

1
    See Appendix V for a glossary of the terms.



                                                                                             Page 10
                  Collection Alternatives Were Available to Economically
                  Distressed Taxpayers, but Some New Processes Need
                                       Improvement



•   Discussing the flexibility provisions with management.
•   Researching selected transactions that occurred as a result of the flexibility provisions on
    the Integrated Data Retrieval System.




                                                                                        Page 11
                    Collection Alternatives Were Available to Economically
                    Distressed Taxpayers, but Some New Processes Need
                                         Improvement



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Glen J. Rhoades, Audit Manager
Christina M. Dreyer, Acting Audit Manager
Darryl J. Roth, Acting Audit Manager
Joseph P. Snyder, Lead Auditor
Michael J. Della Ripa, Senior Auditor
Janis Zuika, Senior Auditor
Lauren W. Bourg, Auditor




                                                                                      Page 12
                    Collection Alternatives Were Available to Economically
                    Distressed Taxpayers, but Some New Processes Need
                                         Improvement



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Communications and Liaison CL
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Communications CL:C
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Commissioner, Small Business/Self-Employed Division SE:S
                 Commissioner, Wage and Investment Division SE:W




                                                                                 Page 13
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; ***2(f)*** (4,800 plus**2(f)****) taxpayer accounts affected (see
    page 5).

Methodology Used to Measure the Reported Benefit:
We identified 615,197 taxpayers who had received an additional 30-day payment skip between
January 31, 2009, and July 18, 2009. These taxpayers had a payment skip indicator placed on
their account during that time period.
A total of 4,800 **2(f)*** taxpayers received multiple additional 30-day payment skips during
that time period. The initial intent of the policy was that taxpayers would receive only one
additional skip.
****************2(f)***********************************************************
******************************************************************************
*****************************************************************************.
Had these taxpayers not received the additional payment skip or multiple additional payment
skips, their installment agreements might have defaulted, making their balance due account
available for assignment to a Collection function employee to resolve.




                                                                                         Page 14
                     Collection Alternatives Were Available to Economically
                     Distressed Taxpayers, but Some New Processes Need
                                          Improvement



                                                                                 Appendix V

                               Glossary of Terms
.
Collection Information Statements – Financial statements used to determine a taxpayer’s
financial condition and ability to pay balance due taxes.
Collection Statute Expiration Date – The last date of the 10-year period allowed by law on
which the IRS can collect delinquent taxes.
Currently Not Collectible – A case closing determination based on the taxpayer’s inability to
pay or borrow to pay the balance due. The case can be subject to reassignment in the future if
certain conditions exist, such as increased income.
Installment Agreement – Arrangements by which the IRS allows the taxpayer to pay a balance
due over a period of time.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Notice of Federal Tax Lien – An encumbrance on property or rights to property as security for
outstanding taxes.
Notice of Federal Tax Lien – Discharge – A process where specified property can be removed
from the lien. This option might be used so the taxpayer can sell a piece of property, but the
proceeds will not satisfy the lien.
Notice of Federal Tax Lien – Subordination – A process where another creditor is moved
ahead of the IRS lien priority. This option might be used when the taxpayer is obtaining a loan
to help pay taxes owed.
Offer in Compromise – An agreement between a taxpayer and the Federal Government to settle
a tax liability for less than the full amount owed.
Partial Payment Installment Agreement – An installment agreement that the IRS can use
when the taxpayer has some ability to pay, but the monthly payment amount will not fully pay
the amount owed by the Collection Statute Expiration Date.



                                                                                         Page 15
                    Collection Alternatives Were Available to Economically
                    Distressed Taxpayers, but Some New Processes Need
                                         Improvement



Payment Skip – A 30-day period when an installment agreement is put on hold and the IRS will
not default it due to the taxpayer missing a scheduled payment.
Payroll Taxes – Amounts employers withhold from employees’ wages for Federal income taxes,
Social Security, and Medicare, as well as the employers’ mandatory matching contributions for
Social Security and Medicare taxes.




                                                                                     Page 16
      Collection Alternatives Were Available to Economically
      Distressed Taxpayers, but Some New Processes Need
                           Improvement



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 17
Collection Alternatives Were Available to Economically
Distressed Taxpayers, but Some New Processes Need
                     Improvement




                                                     Page 18
       Collection Altematives Well!! A VIIi/able to Economically

       Distressed Taxpayers, but Some New Processes Need

                           Improvement




                                                                               Attachment

RECOMMENDATION 1
The Director, Compliance, Wage and Investment Division, should submit a request to
revise the computer programming to allow taxpayers only one additional automatic Skir
per 12-month period and LI2-'-'(f)'-----                                           ~
 CORRECTIVE ACTION
 We agree with thia recommendation. For individuals, we will modify the systemic
 inatallment agreement payment skips to only allow two in a rolling 12-month period. We
 will not allow employeea to reset the aystemic skip counter and will provide additional
 gUidance to employees on when they can allow a skipped payment beyond the
 systemic skips. These programming changes are cont~ent on Modernization and
 Information Technoloav Services resources and fundim:a...,12(f)                      I
 2
1 (f)                                                      1




IMPLEMENTATION DATE

September 15,2012


RESPONSIBLE OFFICIALS

Director, Filing and Payment Compliance, Wage and Investment DIVIsion

Director, Filing and Payment Compliance, Small Business and Self-Employed Division


CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as parrof our internal management control
process.

RECOMMENDATION 2
The Chief. Communications and Liaison, in coordination with the Wage and Investment
Division. ahould ensure that the link remains prominently displayed on the IRS horne
page and/or the Tax Infonnation for Individuals page at least until the economy recovers
(unemployment rate drops).

COMECTlVE ACTION
We agree with this recommendation. We will ensure that the link to the 'What Ifs· of an
Economic Downtum scenarios page is readily available to taxpayers. Action has
already been taken to link the page on the Tax Information for Individuals Page and will
remain there Indefinitely. Additionally, a link to this page will also be posted on the front
page of IRS.gov as often 8S possible, given other competing priorities for the limited
front page space.

IMPLEMENTATION DATE
Completed

RESPONSIBLE OFFICIALS
Chief, Communications and LiaiSon Division




                                                                                                Page 19
Collection Alternatives Were Available to Economically
Distressed Taxpayers, but Some New Processes Need
                     Improvement




                                                     Page 20
